INDEX TO APPENDIX A - LOWER COURT FILINGS

Iowa N. District Court & 8th Cir Court of Appeals
(1:20-CV-61-CJW-MAR)
(20-2997)

A-

Pages 1-63

16

No. .•

In the

Supreme Court of the United States
♦

Justin P. Sulzner, member Christian Cong, of Jehovah’s Witnesses (CCJW)
Plaintiff
- vs.-

United States Intelligence Agencies, (ODNI) et al
Defendant
♦

APPENDIX A
♦

In Re: Justin Paul Sulzner
♦

Justin Paul Sulzner, Pro Se
1834 1st Avenue NE * #104
Cedar Rapids, Iowa 52402
319-213-7608
justinsulzner@gmail.com

Pro Sc 2 (Rev. 12/16) Complaint and Request for Injunction

United States District Court received
for the

JUKI 10 2020

Northern District of Iowa
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT Of IOWA

Division
JUSTIN PAUL SULZNER CHRISTIAN CONGREGATION OF JEHOVAH'S
WITNESSES (CCJW)
WATCHTOWER BIBLE & AND TRACT SOCIETY INC
Plainiijf(s)
(Write thefull name ofeach plaintiff who isfiling this complaint.
If the names of all the plaintiffs cannotfit in the space above,
please write "see attached" in the space and attach an additional
page with thefull list ofnames.)
-V-

UNITED STATES INTELLIGENCE AGENCY
ODNI - OFFICE OF DEPARTMENT NATIONAL
INTELLIGENCE AND ITS
DIRECTORS, ASST. DIRECTORS AND SUBORDIN.
Defendant(s)
(Write thefull name ofeach defendant who is being sued. If the
names ofall the defendants cannotfit in the space above, phase
write “see attached" in the space and attach an additional page
with thefull list of names.)

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

aocmL i

Case No.

cmD-mrn

(to be filled in by the Clerk's Office)

COMPLAINT AND REQUEST FOR INJUNCTION
I.

The Parties to This Complaint
A.

The PIaintiff(s)
Provide the information below for each plaintiff named in the complaint. Attach additional pages if
needed.

B.

Name

JUSTIN PAUL SULZNER

Street Address

1834 1 st AVENUE NE - #104

City and County

CEDAR RAPIDS

State and Zip Code

IOWA 52402

Telephone Number

319-213-7608

E-mail Address

justinsulzner@gmail.com

ThcDcfcndanf(s)
Provide the information below for each defendant named in the complaint, whether the defendant is an
individual, a government agency, an organization, or a corporation. For an individual defendant,
include the person's job or title (ifknown). Attach additional pages if needed.

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

Pro Se 2 (Rev. 12/16) Complaint and Request tor Injunction

Defendant No. 1
Name

ODNI - OFF1CF OF DEPARTMENT NATIONAL INTELLIGENCES,

Job or Tide (ifknown)

ITS DIRECTORS. ASST. DIRECTORS AND SUBORDINATES___

Street Address
City and County

WASHINGTON D.C.

State and Zip Code

20511

Telephone Number
E-mail Address (ifknown)
Defendant No. 2
Name
Job or Title (ifbiown)
Street Address
City and County
State and Zip Code
Telephone Number
E-mail Address (ifknown)
Defendant No. 3
Name
Job or Title (ifknown)
Street Address
City and County
State and Zip Code
Telephone Number
E-mail Address Ofknown)
Defendant No. 4
Name
Job or Title (ifknown)
Street Address
City and County
State and Zip Code
Telephone Number
E-mail Address (ifknown)

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

Pro Sc 2 (Rev. 12/16) Complaint and Request for Injunction

II.

Basis for Jurisdiction
Federal courts are courts of limited jurisdiction (limited power). Generally, only two types of cases can be
heard in federal court: cases involving a federal question and cases involving diversity of citizenship of the
parties Under 28 U.S.C. § 1331, a case arising under the United States Constitution or federal laws or treaties
is a federal question case. Under 28 U.S.C. § 1332, a case in which a citizen of one State sues a citizen of
another State or nation and the amount at stake is more than $75,000 is a diversity of citizenship case. In a
diversity of citizenship case, no defendant may be a citizen of die same State as any plaintiff.
What is the basis for federal court jurisdiction? (check all that apply)
1 1 Diversity of citizenship
[^Federal question

Fill out die paragraphs in this section that apply to this case.
A.

If the Basis for Jurisdiction Is a Federal Question
List the specific federal statutes, federal treaties, and/or provisions of the United States Constitution that
are at issue in this case.
Bivens v. Six Unknown Named Agents, 403 U.S. 388 (1971)
1st and 14th Amendments

B.

If the Basis for Jurisdiction Is Diversity of Citizenship
1.

The Plaintiff(s)
a.

If the plaintiff is an individual
The plaintiff, (name) JUSTIN PAUL SULZNER

, is a citizen of the

State of (name) IOWA

b.

If the plaintiff is a corporation
The plaintiff, (name)

, is incorporated

under the laws of the State of (name)_______________
and has its principal place of business in the State of (name)

(Ifmore than one plaintiff is named in the complaint, attach an additional page providing the
same information for each additional plaintiff.)
2.

The Defendant(s)
a.

If the defendant is an individual
The defendant, (name)
die State of (name)
(foreign nation)

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

, is a citizen of
. Or is a citizen of

Pro Se 2 (Rev. 12/16) Complaint and Request for Injunction

b.

If the defendant is a corporation
The defendant, (name)

, is incorporated under

the laws of the State of (name)

, and has its

principal place of business in the State of (name)
Or is incorporated under the laws of (foreign nation)
and has its principal place of business in (name)
(Ifmore than one defendant is named in the complaint, attach an additional page providing the
same information for each additional defendant.)

3.

The Amount in Controversy
The amount in controversy-the amount the plaintiff claims the defendant owes or the amount at
stake-is more than $75,000, not counting interest and costs of court, because (explain):

THE ACTIONS OF THE DEFENDANT HAVE BEEN EXTREMELY HARMFUL AND
EGREGIOUS TO THE PLAlNTIFF(s).

III.

Statement of Claim
Write a short and plain statement of the claim. Do not make legal arguments. State as briefly as possible the
facts showing that each plaintiff is entitled to the injunction or other relief sought. State how each defendant
was involved and what each defendant did that caused die plaintiff harm or violated the plaintiffs rights,
including the dates and places of that involvement or conduct. If more than one claim is asserted, number each
claim and write a short and plain statement of each claim in a separate paragraph. Attach additional pages if
needed.
A.

Where did the events giving rise to your claim(s) occur?
SEE ATTACHED PLEADING DOCUMENTATION

B.

What date and approximate time did the events giving rise to your claim(s) occur?
SEE ATTACHED PLEADING DOCUMENTATION

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

Pro Se 2 (Rev. 12/16) Complaint and Request for Injunction

What are the facts underlying your claim(s)? (For example: What happened to you? Who did what?
Was anyone else involved? Who else saw what happened?)

C.

SEE ATTACHED PLEADING DOCUMENTATION

IV.

Irreparable Injury
Explain why monetary damages at a later time would not adequately compensate you for the injuries you
sustained, are sustaining, or will sustain as a result of the events described above, or why such compensation
could not be measured.
THE ALLEGED HARMFUL ACTIONS CANNOT BE REPAIRED DUE TO THE TIME SPAN, SCOPE AND VAST
EXTENT OF THIS INTELLIGENCE OPERATION.

V.

Relief
State briefly and precisely what damages or other relief the plaintiff asks the court to order. Do not make legal
arguments. Include any basis for claiming that the wrongs alleged are continuing at the present time. Include
tire amounts of any actual damages claimed for the acts alleged and tire basis for these amounts. Include any
punitive or exemplary damages claimed, the amounts, and the reasons you claim you are entitled to actual or
pimitive money damages.
PRELIMINARY AND PERMANENT INJUNCTIVE RELIEF REQUESTED IN
ATTACHED PLEADING. RELIEF CONCERNING MONEY DAMAGES WILL BE ADDRESSED UPON
CONSULTATION WITH AN ATTORNEY.

Case 1:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

Pro Sc 2 (Rev. 12/16) Complaint and Request for Injunction

VI.

Certification and Closing
Under Federal Rule of Civil Procedure 11, by signing below, I certify to the best of my knowledge, information,
and belief that this complaint: (1) is not being presented for an improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation; (2) is supported by existing law or by a
nonfrivolous argument for extending, modifying, or reversing existing law; (3) the factual contentions have
evidentiary support or, if specifically so identified, will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery; and (4) the complaint otherwise complies with the
requirements of Rule 11.
A.

For Parties Without an Attorney
I agree to provide the Clerk’s Office with any changes to my address where case-related papers may be
served. I understand that my failure to keep a current address on file with the Clerk’s Office may result
in the dismissal of my case.
Date of signing:

06/^572020

Signature of Plaintiff
Printed Name of Plaintiff
B.

JUSTIN PAUL SULZNER

For Attorneys
Date of signing:
Signature of Attorney
Printed Name of Attorney
Bar Number
Name of Law Firm
Street Address
State and Zip Code
Telephone Number
E-mail Address

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20 '•

Leave with a staff member, or mail to:
ACLU ofIowa (Attn: Legal Intake), 505 Fifth Ave., Ste. 808, Des Moines, LA 50309

'll

I
m

mrnmmmm

legal progrin

For Legal Complaints, please provide the following information and a
member of our staff will be in touch with you at our earliest opportunity.
NAME:

Juzf/A Sulzner

ADDRESS:

9(4o KL At/gflue-

DAYTIME PHONE:
EMAIL:

5£3-2.60-065~6 (noui 3«f-j2X3-rlt08)
day4ta dec 3 z&o © yAhoo , co ft\ (do f)at
fer cm\ PrcW\-f*A|)

BRIEF DESCRIPTION (Please provide a brief description of your concern or
complaint here. The more specific you can be the better.):

For cvie-r 65 'V-&A-f3 f)\p. USX^fUinit^d

f£5

/\jJU>A cy - C/A > Ms A
o Ttors^
i a & fljfy.s 4-e
r~
\C<z c-.fij v4~ f~An1 a t A .4 oP fn d t O Tdl ua i

Tyvktl ii"
in&Uc^ )rsj>£j>/\

bv(K/v\s dP dolln> ftkfe

/V6 Pa(^. OeJko\jAh.-r /yjri~n<£^eL5
.^4KwAO
J Cj&AQCe.gAftoin^y
^
.....

ftnex^omr
u'xci -H

Tkll Is ^qjrQAl^i' jo & £1-^ r^nf~uj/y
i/^oAyy\ ciAy /ik>torAast~ In hii/iicM. the. <^rU- l
Is 1
fjP -f-h^
CC^cTW(^ Cfo/kSf; AtA. d&y\np?XjA -hlrSV) f)P J&hOUJrl’ "
7

Th&ses CexLfu'i jecI uF&Kp, Jk}io\jAks
Q9mo fronA all ljaIKs of irF^ »
#t/£/V) Mi-tOf arc CjCgf'Sj dtcfcncj
eJee- Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

/;
. me-dAAr lcsg

Wul-h-

They ACe. OAid 9 tif USZA *> perrmy e**y C&f) oei^z-r-jb ^
£rp
fiwHilv irpe SituM-ian uiitklA & fi-orto* 1 cm.g&j*
<3tMouAhs Li3i+v\esses 'ie,i
pA<tA+s wi+K sP>A *uy
u3e&. cMetos*. Or \JiserVtrsA,
wAb<Ufe^A3 vn^
S9va& u^KoiSe
ly hAS ',4fS<9uj^<2•cl-, fh&Yl-fbr htc&mtfly cne
Op vSlOUAUs UrbvBSS&S'

If

<Di\^ €>PH&> gGP\S oP 4i\e5e- USXA Tn^pdSteCS iS jo Occupy
fey p0c5i ji&TiS LOithh') tl\£ ClC-XW £Xlc\\ A5 B^AclvS cOP &f)Af\cJ0\

0PP-rce5; OYcxtrf CyJGTs*&ff> j vSer^rte
tfzAS Aa4
gAcAct hoolys. H-oueGeT ffatfH, ^ owners k)%> appdAf 4o .he.
OQmmoA, pub ust^rs odtfuA cxPTWf- S&wvl ejj^\ -pxs*- as*
it Sestet cpn&s tf(i*£y fy\A/ study tt*- Bihh, on anei^-PP a»\ct
/TV
attend fke CCJW n^julsW^giA •+**><" lOcMe)
Avvofh^r 30 M„ oP fK^5e> 0(sl/\ Tvyipo^-foDs
qufctiy promote^ morality tMA /is cantrAy -ho ff\A Brb/rcM 5tandAA£s fAugh
by ft\£- ox cry/, fjdL\ij-fePy /^nci ftnorcu^^icyv^
pr$ cf *
A*i«
f-pTs noT" unC^j^fA
^3 pnttc^i rA A ocPy 5eor<„f,'^
A\nftA£ir

0P fhege, U$Zft mpostoCs Ts to ranWn r
the c^yctgMt^rx u/vH l -fixe, lausrt jn^. O^ouaKs djffmss <uHrK
prffY\4fy <?!

ie^^3rtA,5to up Attend er Jre^,
is nm diSsoioeMj ^
/Mil rs sold* TKe
-rtwf
S‘4ff ouAtis Hr beo9m£,s und5l5irane4 and the doef^to- doo-r
^rfo A/v «s plAy^d. ddt
pmAchi'm u/oPK 'fh&PM' coAStS r This
hw/{dfe4>S op f'M^S thfOVf M^t t-he.

cuiOolci-

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

.8

Uy\4*lt ikt, FOXA p]&AS& provide, aASto&rs -k> i"keFbllOuJ?(Vf qii&s-fi&YiS'
-I- X-S rKe ,'fv-^dU'A

ox fA.\s lASIA opefAfi'&Yi oDwiiAg1 dTecHy
■Fr^ Usxa ar is Tt elvwwudted thrash ^otksr 'Hi\<Yt(,
pbfty or^Aniz-A+M&nf^sacK /)s the unrHd jvMrcms?)

2..vH¥j>& <■? fhe avtTfiqe, Amount' *ASj_A p/sys ^r\ m^uf^UA-l
in cump^A-Hov] i© perpei-u4-fe tKU daspfcAbve. P^W?
ifc

3.

CftnftdA, Mexico, SpAlr^ PKiltiptn&s, TorgA
aAcl BoUul 3, #
o-H^ep cOuo+r^s / 5 *fh\S PrAud
perp^iuvA^e^ by ^d/usduAls world ^ fbr USxA ?

4r Pi^/vJo icbA^fy {ipawy) {A&nAhcO’ &P

(S-ouerr^fv^ 0od^

&P iJekzVAfaS {jJY&gSS&S uSho
Ctfr/fe^tiy uJ&rht acj A>r lASXAor a tVvrdl pATVy oQjAnxzA-j-l&ir*, A li*5+ Has b£^Y\ provided-.
Ad&fe&£ iS* Warl/vIcK* Atew /bvAl<

cerw^pkH itef by HAme, alphabe^icAUy;
5-fAk^ OP C£YYj'T&) A-fidA £>f fte/ fOafVid^/5 CUrrtftHy
*
L(Jc5r)<fA5 -fet' OSXA 1A Vhe_- mAAAer d&S'cri

£, ?Ms«. prouidB *

&. fi£A5& pA0Ui<i^

a oOmp^Ve, lust by n^Y\e-/ &lpWai*d-11

stated"^■Sf' •o«w^
Cor iXSXA uifto &cc
1, PleAS^ HaA+'-fy SJ'V odjV? r&ligt6»S irt xfrucK A S’Tw’i |<a-r
profir/WH 'is bejiypj cAfTied. out- by ii&XA.
<»
0,5'mee- my pe/SOml pw?ne-, CdmpMkTS, dM. uJircfegs TO vfrcr
h^\j<L-been oiAcleroans+aM-Sufvd UsAce % ulSjA pieASe p/xsu'ui
•me witvvp»MW/WWl| this £jr

March 16th, 2020

National Security Agency
ATTN: Acting Chief. FOIA Office
Ft. George G. Meade, Maryland 20755-6000

RE: FOIA 107947

Dear Sharon Linkous:
I did not receive your letter via USPS dated September 12th, 2019. The time has passed for an
appeal, therefore I am requesting that you read the following:
NSA did not really answer any of my questions concerning the FOIA that I sent in September,
2019 and in March 2020. NSA claimed they addressed those questions under Request 107947.
They did not.
In that FOIA, NSA simply told me what their "two-fold mission" is. Thank you for that
information, but it does not address the questions I asked. It simply tells me what NSA does and
what your mission is, implying that my requests do not fall within your mission and the questions
are therefore unanswerable. That is deceptive.
This request may”deal with intelligence operations that fall outside NSA’s mission and NSA may
be conducting an operation that does NOT fall within that mission. I am confident we all are well
aware that NSA has engaged in these types of missions on several occasions in the past.

PI EASE READ AND ANSWER THESE QUESTIONS CAREFULLY:
1. Is NSA aware of the intelligence community currently operating within the congregations
of Jehovah's Witnesses within the U.S. and other countries throughout the world?
2. Is NSA providing "solutions, products and services and/or intelligence processing” for the
intelligence community currently operating in congregations of Jehovah's Witnesses in
the U.S. and throughout the world?
3. Is NSA assisting another ODNI agency or organization in providing "solutions, products,
services and/or intelligence processing” for the intelligence community currently
operating within the congregations of Jehovah's Witnesses in the U.S. and throughout
the world?

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

4. How many individual operatives are a part of this multi-national intelligence operation?
5. How long has this intelligence operation been active and what is the budget breakdown?
(including but not limited to personnel costs)
6. What are the goals that the intelligence agency sought by developing this intelligence
community within the congregations of Jehovah’s Witnesses throughout the world?

Again, If my request is denied in whole or part, please justify all deletions and I expect the
agency to release all segregate portions of otherwise exempt material.

I am willing to pay up to $50.00 for this information
Thank you for your keen attention to this matter.

Justin Sulzner
1834 1 st Avenue - #104
Cedar Rapids, Iowa 52402
319-213-7608

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

September 10th, 2019, February 23rd, 2020 , and April 16th, 2020
Dear ODNl FOIA Officer:
1.1 am formally requesting all documents ODNl has generated which has provided
“guidance”, “oversight" and “intelligence integration" to the U.S. intelligence community
currently operating within U.S. congregations of Jehovah’s Witnesses.
2. Please provide the documents of the agency or agencies under ODNl direction that
explain how ODNl is currently directing the behaviour of individuals within the
intelligence community (behaviour, actions, problems that arise, policies) now operating
within Jehovah's Witnesses congregations in the United States and other countries.
3. Please provide the documentation records of the length of time this intelligence
community has been operating, the budget, and the budget breakdown, number of
members, (including but not limited to, personnel costs ).
4. Please provide the documents stating the goals that the intelligence agency(s)
sought to accomplish by placing these intelligence individuals (community) within the
congregations of Jehovah's Witnesses throughout the U.S.
5. Please provide the documents that show U.S. intelligence communities are currently
operating in the same fashion that ODNl is directing or providing oversight to these
intelligence communities within other religions.
6. Please provide the documents, if any, to show ODNl is working in conjunction with
the United Nations in directing or providing oversight to these intelligence communities
within religions.
Disclosure of the requested information to me is in the public interest because it is likely
to contribute significantly to public understanding of the operations or activities of the
government and is not primarily in my commercial interest.
If my request is denied in whole or part, I ask that ODNl justify all deletions by reference
to specific exemptions of the act. I will also expect ODNl to release all segregable
portions of otherwise exempt material.

Justin Paul Sulzner-1834 1st Avenue NE - Cedar Rapids, Iowa 52402

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

MAHON,M AHCHIVS.s it ml Ri-COIIDS AOM1NI5THA riON
Sfii»l AOH 1*H1 HOAO

OOl l.FGK I’AUK. Ml) 2H7-IO-M)OI

n-trir. artll i vrs.gp i'

NATIONAL
ARCHIVES

March 17, 2020
Justin Suizner
1834 First Avenue NE # 104
Cedar Rapids IA 52402

Requester Justin Sulzner-I am writing in response to your Freedom of information Act request of February 12, 2020, for
records in the custody of the National Archives and Records Administration. Your request was
received in this office on February 20, 2020 and assigned FOIA tracking number 63908.
You requested access to case file numbers 44-HQ-73781, 61-CG-525, 61-HQ-1053, 100-DL-196,
and 100-DL 6191, identified by the FBI as potentially responsive to your request for records
relating to Jehovah’s Witnesses. My initial assessment confirms that only three of the files
contain references to Jehovah's Witnesses:
1. Case file 44-HQ-73781 is on Members of the Jehovah's Witnesses in Puerto Rico. The file
is arranged in a single section and contains 17 pages. This file is available for public use;
16 pages have been released in full, and one page has been redacted for privacy
information of individuals who may still be living^uhder 5 USC 552 (b)(6). Because of the
small number of pages, I have included a-copy.
B 2. Case file 61-CG-525 is on Jehovah's Witnesses. The file is arranged in a single
§
subsection and contains an estimated 400 pages compiled-as part of a treason
I
investigation conducted between June 1940 and September 1963.
I 3.
m
IL
m

Case file 61-HQ-1053 is on the International Bible Students Association and was later on
Jehovah’s Witnesses. The file is arranged in 71 sections and has an estimated 13,200
pages, compiled as part of a treason investigation conducted between November 1921
and January 1977.

In two of the case files, I did not see any mention of Jehovah's Witnesses:
1. Case file 100-DL-196 is on the American Civil Liberties Union. The file is arranged in a
single section and contains approximately 50 pages, compiled as part of an internal
security investigation conducted between June 1940 and June 1968.
2. Case file 100-DL-6191 is on Communist Literature Found in a Well Near Ennis, Texas.
The file is arranged in a single subsection and contains approximately 40 pages, compiled
as part of an internal security investigation conducted in 1943.
Case files 61-CG-525, 61-HQ-1053,100-DL-196, and 100-DL 6191 require screening for
categories of information exempted from disclosure under the terms of the Freedom of
Information Act, prior to public release. In particular, there are documents that may be redacted to

Case l:20-cv-00061-CJW-MAR

Document 1 Filed 06/15/20

protect the identities of confidential sources, including FBI informant codes and informant file
numbers.
These files together total a necessary review of approximately 13,700 pages. Requests for FBI
case files that exceed 3,000 pages are assigned to our third-tier processing queue. You will
receive a response in partial fulfillment of your request after we have completed the first
increment. We will provide you with an update on the status of your request and an estimated
completion date at that time. To give you an indication of our existing backlog, we are currently
processing requests received in August 2013.
If you would like to discuss narrowing your request, please contact me directly at 301-837-0604
or amanda.weimer@nara.gov. I would be happy to assist you in narrowing the focus of your
request to below 700 pages, in order to move your request to a much faster review queue.
Please note that once we have notified you that we have completed the first increment, you may
either visit our College Park, MD facility to view the file at no cost or order a reproduction. You
may order a reproduction copy at the cost of $0.80 per page by contacting our office to place an
order. We estimate that the cost of a reproduction of the total file will be $10,960.
Due to COVID-19 all National Archives research rooms nationwide are closed to the public
until further notice. Please monitor NARA's website at www.archives.gov for any change in status. '\
Follow the National Archives on Facebook and on Twitter for immediate updates. For the present,
you still have the option to order a copy of the records once review is complete.
To notify this office of a change in your contact information or to track the status of your request,
please telephone 301-837-3190 or e-mail soecialaccess foia@nara.gov. If you have specific
questions regarding the subject of your request, please contact me directly at 301-837-0604 or
amanda.weimer@nara.gov. All communications concerning this request should reference your
FOIA tracking number 63908. If this communication is returned as undeliverable and no return
address is provided, your case will be administratively closed.
If you are not satisfied with our action on this request and would like the opportunity to discuss our
response, you may contact our FOIA Public Liaison for assistance:
Accessioned Executive Branch Records - Washington, DC Area
FOIA Requester Service Center: 301-837-3190
FOIA Public Liaison: Lynn Goodsell (Acting)
8601 Adelphi Road, Room 5500
College Park, MD 20740-6001
Telephone: 301-837-3190
E-mail: dc.foia.liaison@nara.gov
If you are not satisfied with our action on this request, you have the right to file an administrative
appeal within ninety (90) calendar days from the date of this letter. Appeals must be in writing and
may be delivered by regular U.S. mail or by email. By filing an appeal, you preserve your rights
under the Freedom of Information Act and present the deciding agency with an opportunity to
review your request and reconsider its decision. If you submit your appeal by regular mail, it
should be addressed to the Deputy Archivist of the United States (ND), National Archives and
Records Administration, 8601 Adelphi Road, Room 4200, College Park, Maryland 20740-6001.
Both the letter and envelope should be clearly marked "FOIA Appeal” if you submit your appeal by
email, please send it to foia@nara.qov. addressed to the Deputy Archivist, with the words “FOIA

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

Appeal” in the subject line. Please be certain to explain why you believe this response does not
meet the requirements of the Freedom of Information Act. All communications concerning this
request should reference FOIA case number 63908.
If you are unable to resolve your dispute through our Public Liaison, the Office of Government
Information Services (OGIS) is the federal FOIA ombudsman. OGIS offers mediation services to
help resolve disputes between FOIA requesters and federal agencies. You may contact OGIS at
the following address:
Office of Government information Services (OGIS)
National Archives and Records Administration
8601 Adelphi Road, Room 2510
College Park, MD 0740-6001
oais@nara.gov
202-741-5770
1-877-684-6448

Sincerely,
'X

Dr. Amanda Weimer
Archivist
Special Access and FOIA Staff
https://www.archives.gov/research/foia

Case l:20-cv-00061-CJW-MAR

Document 1 Filed 06/15/20 /-^y 15

UNITED STATES FEDERAL COURT
NORTHERN DISTRICT OF IOWA
- FILED JUNE 15th, 2020 -

JUSTIN PAUL SULZNER & ALL TRUE )
MEMBERS IN THE CHRISTIAN

)

CONGREGATIONS OF JEHOVAH’S

)

WITNESSES (CCJW)&WATCHTOWER )
BIBLE & TRACT SOCIETY INC. (WBTS) )
P!amtiff(s)

)

)

vs.

)

NO.

OFFICE OF DIRECTORS OF NATIONAL )
INTELLIGENCE - UNKNOWN AND
UNNAMED ASSISTANT

)
)

DIRECTORS & SUBORDINATES (ODNI) )
Defendants

)

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

JURISDICTION & VENUE -Fed. R. Civ. P. 8(a) :
1. The Northern District Court of Iowa has jurisdiction of the action (inter
alia) under 28 U.S.C. § 1331,1343, & 1391, and 1402(b) because this is
where the events giving rise to this claim occurred.
PLAINTIFFS & DEFENDANTS;
1. Plaintiff, Justin P. Sulzner, a citizen of the United States of America,
alleges:
(2) Upon consultation with an attorney, this action may be subject to
Federal Rule 23- Class Actions - Federal Rules of Civil Procedures as
Plaintiff(s): The true members of the CCJW may be a part of that Class.
These individuals are citizens of the U.S and its U.S. Territories.
2. This action is brought against the Assistant Directors of ODNI - Director
of United States National Intelligence and 3 of its 17 Agency AssistantDirectors (ODNI), its subordinates, guided community intelligence
operatives and any third party organization ODNI may be operating
through to enforce the provisions of the Constitution’s Bill of Rights - 1st &
14th under Bivens vs. Six Agents -403 U.S. 388 (1971).
4. Plaintiffs) seek declaratory and injunctive relief pursuant to 28 U.S.C. Section 2201 & 2202 and/or 28 U.S.C. Section 1346(b) Plaintiffs claims for
injunctive relief are authorized by 28 U.S.C. - Section 2283 & 2284 and
Rule 65 of the Federal Rules of Civil Procedure.

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

5- Plaintiff(s) believe the Defendants acted in manners "beyond their
official capacities" in order to keep an intelligence community operation
secret and viable within ALL CCJW’s in the U.S. and its Territories.
5. The Defendants, The Office of Director(s) of National Intelligence
("ODNI"), are senior level federal, governmental agency employees worldng
pursuant to the laws of the Federal Government under 50 U.S.C. - 3023.
6. The Defendant(s) exercised oversight and are legally responsible for a
secret program which provides guidance and oversight for the actions of
thousands of secret intelligence operatives formed into an "intelligence
community” that is currently operating within EVERY SINGLE CCJW’s in
the U.S. and its Territories, including other additional congregations
throughout the world.
7„ The Defendant(s) are ODNI sub-Directors and subordinates who have
subjected Plaintiff(s) Justin Paul Sulzner, and the true members of the
CCJW of which he is a part, to egregious violations of severe mental
distress, agony and violation of the Constitution’s Bill of Rights- 1st and
14th, associated with free speech, religious freedoms and life, liberty & the
pursuit of happiness.
8. The Defendants have assisted and facilitated a predatory intelligence
community that victimizes unsuspecting individuals within the CCJW.
Through their actions, ODNI has slowly and quietly inducing true members
to abandon their faith and Bible based beliefs.
9. All of the Plaintiff(s) are United States citizens and native of the United
States and Territories. The Plaintiff(s) have been deprived of their
constitutionally protected rights to practice their religious beliefs
unhindered, in violation of federal statutes: The Constitution’s Bill of
Rights -1st & 14 and Bivens vs. Six Agents -403 U.S. 388 (1971).

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

io. Each suspect ODNI sub- Director and subordinates responsible is sued
individually and in his/her official capacity under the color of Federal Law.
FACTS OF COMPLAINT;
(a) Mr. Sulzner currently is and has been an active member of the
Jehovah’s Witnesses in Iowa for the last 45 years.
(b ) With no actual evidence, Mr. Sulzner filed a formal complaint with
ACLU in Des Moines, IA around May, 2019 to request an investigation into
the following circumstances surrounding the manner in which
some“members” were acting within the CCJW’s that had attended. Many
of these unusual acting “members” and their deeds occurred over several
years. Mr. Sulzner began to carefully focus his attention on these
“members” in 2016. He suspected, by observing their actions, that some
were unquestionably not “right” and quite likely were not true members of
the CCJW.
(d ) Shortly thereafter, Mr. Sulzner drafted 18 FOIA’s (Freedom of
Information Act) under (5 U.S.C.- 552) that were directed at the U.S. ODNI
agencies that he suspected had a hand in the odd and questionable actions
of the religious “members” he had observed over several years. Mr. Sulzner
began to suspect with complete confidence that his wife and others close to
his family within the local CCJW were involved with this "intelligence
community" that is guided, directed, organized and sanctioned by ODNI
Assistant Directors under the Head Office of U. S. Intelligence.
(e) After several months, answers from the 18 submitted FOIA’s began to
pour in. Most federal agencies responded to submitted questions within 60
days with the exception of three: ODNI, CIA, and NSA. Mr. Sulzner
drafted a second FOIA request and re-submitted them to the four agencies

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

that did not respond. (SEE September 10th, 2019 FOIA). Mr. Sulzner is
still waiting for a valid response.
(f) One FBI-FOIA indicated there was an incredibly large cache of well
over 13,600 previously top secret documents, indicating that an
active U.S. Intelligence Community that was operating within the CCJW.
NARA (National Records & Archives) offered to eventually send the records
to Mr. Sulzner for a cost totaling nearly $11,000, however the documents
would not be ready for years, as they were not redacted and NARA has just
started to process document requests for the calendar year 2014.
(a) The collective response of the FOIA’s revealed that ODNI (formerly CIA
& OSS) has unquestionably developed a secret, elaborate, organized
intelligence community that has been actively operating within the CCJW
since 1921.
(b) Since 1921, ODNI (formerly CIA & OSS) has carefully recruited paid
intelligence community individuals (either employees, contractors and/or
sub-contractors?) to pose as “real” Jehovah’s Witnesses or “interested Bible
students” and regularly attend the congregations and scheduled gatherings
in their geographical area, posing as “real members” of the CCJW.
(c) The Plaintiff(s) believe there have been thousands of CIA & OSS (now
ODNI) recruited operatives since 1921 and that there are currently tens of
thousands of these ODNI operatives active within the CCJW in the U.S. and
Territories.
(d) These operatives are virtually unrecognizable as impostors within the
CCJW. The Plaintiff(s) believe that these ODNI impostors have been
regularly and carefully instructed through the years to meticulously follow
and obey most CCJW letters of protocol dealing with: (door-to door
preaching, weekly scheduled meetings, attending large assemblies) issued
by the World Headquarters of Jehovah’s Witnesses (now in Warwick, NY)

Case l:20-cv-00.061-CJW-MAR Document 1 Filed 06/15/20

in order to continuously perpetuate the
"intelligence members" within tie c°"®
CCJW where they )ive.
among the true followers attending the local CCJW
(c) The Plaintiff® believe

^Q^i^a^es^h^have^e^dar6

families have heen active within the CCJW l
jobs, they raise their families, t ey me mv^
«•<“ N*«” me

al
sonality
^ QDNI (formerly
.ppemnM* ot

within the CCJW.
' f tiuic tt s intelligence community was to investigate
(d) The initial goal of his U.S
>S
However, after finding
CCJW for treason through the yeai of1977
the goai 0f
the
nothing treasonous after many decades, the
that used these
ODNI (formerly CXA-OSS) changed “.^acjty that slowly
impostor embedded families & m m
transitioned to undermining an e e

the CCJw’s true followers
h local congregation,

from within
selling the Kingdom
particular locale.

recommended and appointed
yMinisterial Servants (Deacons),
CCJW around the world :Pubhs
Branch Workers, Legal
Overseers . <*«* 0veKeerS’ ^JnftS These impostors would
Dept, and other high P°*®°"S

others and execute critical financial

purpose w

Case l:20-cv-00061-CJW-MAR

Document 1 Filed 06/15/20

[ 21 'M

(f) The Plaintiffs) have observed over the past two decades some suspect
ODNI operatives, who regularly watched pornography, or who had not
attended the CCJW regularly for years, or who had beyond disgusting and
corrupt moral deficiences (according to Bible laws), being immediately
recommended and appointed to high positions of oversight within the local
CCJW by fellow ODNI impostors who were already in place and given
positions of authority years before.
(g) ODNI & its sub- Agency Directors and subordinates have failed and
refused to provide Plaintiffs) with the unobstructed opportunities to
practice religious beliefs within his local community and within previous
communities he resided, because of the disgusting presence of these ODNI
established intelligence communities within the five CCJW’s he has
attended within Iowa during the past 45 years.
(h) The Plaintiffs) believe all U.S. intelligence communities were directed
by ODNI Directors or an ODNI directed/funded third party organization;
regularly providing monthly guidance and oversight to their paid local
operatives who are currently attending the local CCJW.
(i) The Plaintiffs) believe ODNI Assistant Directors have failed and
refused to take appropriate action to remedy the effects of the
discriminatory treatment and severe mental and emotional damage
inflicted against the true worshippers within the CCJW.
(j) The Plaintiffs) believe ODNI Assistant Directors have failed and could
have reasonably contemplated that the actions of their intelligence
operatives within the CCJW would cause extreme mental anguish to the
Plaintiffs as a result of their violations of 1st Amendment and/or intentional
torts and/or “breach of contract” associated with protecting Constitutional
rights associated with freedom of religion, life, liberty and the pursuit of
happiness.

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

(k) The Plaintiff(s) believe ODNI Assistant Directors failed and could have
reasonably contemplated that the actions of their intelligence operatives
would cause severe and extreme mental anguish to families being divided
because of the actions of family members who were truly not Jehovah’s
Witnesses; resulting in devastating consequences such as: loss of spousal
support, loss of spousal consortium and/or loss of children’s affection, loss
of family and/or loss of communication with family members.
(1) The Plaintiff(s) firmly believe there have been several instances where
true members of the CCJW have committed suicide because they did not
comprehend or understand the sinister nature of this secret operation
executed by these ODNI intelligence operatives within their local
congregation.
TMEGAF CLAIMS;
When the Federal Court considers an application to proceed: First, the
Court “must accept all of the complaint’s well-pleaded facts as true.” Id. at
210. Second, the Court “must then determine whether the facts alleged in
the complaint are sufficient to show that the plaintiff has a ‘plausible claim
for relief.’” Id. at 211 (quoting Iqbal, 129 S. Ct. at 1950). The “plausibility”
analysis “will be ‘a context-specific task that requires the reviewing court to
draw on its judicial experience and common sense.’” Id. (quoting Iqbal, 129
S. Ct. at 1949)..
Due to the complexity and span of duration surrounding this complaint, the
Plaintiff(s) believes the closest legal remedy applicable to this legal
complaint is either through: The Constitution’s Bill of Rights -1st & 14th
and/or Bivens vs. Six Agents - 403 U.S. 388 (1971).
This case easily has the potential to possibly extend Bivens to a “new
context.” Where a “Bivens case” does not present a new context, that is the

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

end of the analysis and the court does not need to proceed to determine
whether there are special factors counseling hesitation against a remedy.
PLAINTIFFS COMMON IAW TORY CLAIMS
14 cases under established Iowa Law.
EXHAUSTION OF LEGAL REMEDIES:
1. Plaintiffs) have not been contacted regarding two submitted SF-95
Forms to the ODNI in mid-April and May, 2020, as the 6 month time limit
has not yet passed. An FTCA claim is not yet a consideration.
2. Plaintiffs) unsuccessfully attempted to contact the Department of
Justice in Washington D.C. in March, 2020 and asked for assistance
through conciliation voluntary resolution of the charge and subsequently
was informed they may not be able to help. (SEE LETTER TO HRSP-FBI
WASHINGTON D.C.)
3. All conditions precedent to the filing of suit have been met.
REQUEST FOR RELIEF:
WHEREFORE, the Plaintiffs) seek to prevent continuing and substantial
injury to innocent victims who come into contact with this intelligence
community and prays the Iowa Northern District Court to issue judgment
granting the Plaintiffs):
(1) An immediate individual personal service of this complaint by U.S.
Marshals to four of the most senior members of the CCJW Governing Body
of Jehovah’s Witnesses: Gerritt Losch, Samuel Herd, Mark Stephen Lett

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

and David Splane and the Head of Worldwide Legal Department, Mr. Paul
Polidoro.
FURTHER, granting preliminary and permanent injunctions requested, in
part, under 5 U.S.C Part 552b - Section f (Injunctive Relief against Federal
Agencies) ordering:
(a) All ODNI and/or any ODNI third party intelligence community
individuals to immediately cease executing any decisions for the CCJW
and/or WBTS and permanently depart and cease from working and
residing at the following World Headquarters (in New York) properties
controlled by WBTS Inc and/or CCJW: Ramapo, Tuxedo, Warwick,
Patterson, Wallldll, Mt. Ebo and any other property in the U.S. not listed
within 15 days of the issuing order.
(b) ALL ODNI and/or ODNI third party intelligence community
individuals to immediately cease executing any decisions for the CCJW
and/or WBTS and permanently depart and vacate any local state CCJWs
they are/had attended during the past 25 years and cease providing any
further congregational “direction or guidance” personally, via phone, or via
computer to any true members remaining within those congregations in all
50 states and Territories throughout the United States within 15 days of the
issuing order.
(c) NARA, NSA, CIA and ODNI to immediately provide for public
consideration and interest, at no cost, and in detail, all unredacted FOIA
document information requests submitted on September 10th, 2019,
February 20th, 2020, February 23rd, 2020 and April 16th,2020.
The Plaintiffs) have no plain, adequate, or straightforward remedy at law
to redress the wrongs described herein. Plaintiffs) have been and will
continue to be irreparably harmed because of the malicious and egregious
conduct of the Defendants established U.S. intelligence communities within

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

the CCJW’s, unless this Court grants the declaratory and/or injunctive
relief the Plaintiffs) seek.
Damages;
(a) Plaintiffs) will be requesting substantial compensatory damages for the
injuries caused by the actions of ODNI sub-directors, subordinates and
intelligence community individuals discriminatory conduct within the
CCJW pursuant to and within the statutoiy limitations of The
Constitution’s Bill of Rights - ist and 14th and/or Bivens vs. Six Agents403 U.S. 388 (1971)(b) Take other appropriate nondiscriminatory measures to overcome the
effects of the discrimination and any future discriminatory actions that may
occur.
(c) Costs associated with Plaintiffs) attorneys and the filing of this suit.
(d) The plaintiff prays for such additional relief as justice may require,
together with proper and equitable costs/ disbursements in this action.

JURY DEMAND
The Plaintiffs) hereby requests a trial by jury of all issues so triable
pursuant to Rule 38 of the Federal Rules of Civil Procedure and Section 102
of the Civil Rights Act of 1991,42 U.S.C. Upon consultation with an
attorney, that request may be withdrawn for consideration by a District
Judge only.

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

VERIFICATION
I have read the foregoing complaint and hereby verify that the matters
alleged therein are true, except as to matters alleged on information and
belief, and, as to those I believe them to be true. I certify under the penalty
of peijmy that the foregoing is true and correct.
Respectfully submittedDated:

JUNE 15th, 2020

[S],
0
Justin P. Sulzner - Attorney Pro Se
1834 First Avenue - #104
Cedar Rapids, Iowa 52402
Telephone: 319-213-7608
Email: j11Mins1ll7mer@gmail.com

Certificate of Service I hereby certify under Rule 5(c) that a copy of the
foregoing was mailed within 90 days to ODNI - U.S. Intelligence at
Washington D.C. 20511 on:
{£>~j ‘2.02.Q■. fsl

P'Paul Sulzner

Case l:20-cv-00061-CJW-MAR Document 1 Filed 06/15/20

RECEIVED
IN THE UNITED STATES COURT NORTHERN DISTRICT OF IOWA :

JUL : 420ZD
UNITED STATES DISTRICT COURT
NORTHERN OtSTRtCTOF IOWA

)

IN THE MATTER OF:
JUSTIN PAUL SULZNER
TRUE CCJW MEMBERS
& WATCHTOWER &
BIBLE TRACT SOCIETY

)
)

APPLICATION FOR THE DISTRICT
COURT TO APPOINT AN ATTORNEY

)
)
)

CASE NO. 20CV61 -CJW-MAR

)

Plaintiffs)

)
)

vs.

)
)

AND CONCERNING:
ODNI - SUB DIRECTORS
& SUBORDINATES .

)

j
)
)

Defendants)

1.

)

Request" an attorn^ V 'hr°U9h E'Which pravides ^federal courts may

(A) the allegation of poverty is untrueio"''

" *“

determines tha<-

(B) the action or appeal_
(C) is frivolous or malicious
(D) fails to state a claim on which relief may be granted' or
(E) seeks monetary relief against a defendant who is i
immune from such relief.

Case l:20-cv-00061-CJW-MAR Documents Filed 07/14/20

^

Further, Federal Courts have identified factors that courts consider when evaluating a
motion for appointment of counsel. Appointment of counsel is only appropriate under
Enforcement Provisions - § 2000e-5(f): (a) after the plaintiff has affirmatively shown “(b)
financial inability to pay for counsel; (c) diligence in attempting to secure counsel; and
(d) meritorious allegations of discrimination.

1. Plaintiff has tried unsuccessfully to seek legal representation from seventeen
different attorneys in the eastern Iowa area and nationwide: a. Viner Law b. RSH
Legal c. Kucera & Associates Law d. Lynch-Dallas Law e. Rush Nicholson Law f.
Day, Rettig, Martin Law g. Piersall Law h. Simmons, Perrine, Moyer & Bergman
Law i. Arenson Law j. Dave O’Brien Law. k. Fagre-Drinker Law I. Shuttleworth &
Ingersoll Law (call not returned) m. Mark Liabo Law. n. Baez Law, Orlando FL.
o. Ifrah Law, Washington D.C. p. Tucker Law Group, Philadelphia PA. q.
Wharton Aldhizer & Weaver .Harrisonburg, PA.
2. Very few of these law firms had even heard of a “Bivens vs. Six Agents” or
“FTCA Claim”. One firm had once dealt with such a claim and that firm was:
Dave O’Brien Law, Cedar Rapids, IA
3. The submitted AO-240 affidavit submitted to the District Court on June 15th,
2020 clearly shows that Plaintiff is financially unable to secure counsel. In the
appointment-of-counsel context, the pertinent inquiry is whether the party
seeking appointment can "meet his or her daily expenses” while also hiring an
attorney. Given the financial affidavit, Plaintiff has shown that he would be
unable to meet his daily, non-discretionary expenses were he to hire an attorney.

I, JUSTIN PAUL SULZNER, REQUEST THE DISTRICT COURT TO GRANT THIS
REQUEST AND CERTIFY UNDER THE PENALTY OF PERJURY THAT THE
FOLLOWING INFORMATION IS TRUE AND CORRECT
7
/s/ Justin Paul Sulzner

DATE :

July 14th, 2020

Case l:20-cv-00061-CJW-MAR Document s Filed 07/14/20 >

-

RECEIVED
IN THE UNITED STATES FEDERAL COURT
NORTHERN DISTRICT OF IOWA :

JUL 3 i 2020
yNITEO STATES DISTRICT COURT
NORTHERN OISTRICT OF IOWA

)

IN THE MATTER OF:
JUSTIN PAUL SULZNER
TRUE CCJW MEMBERS
& WATCHTOWER &
BIBLE TRACT SOCIETY

)
)
)

(AMENDED) APPLICATION TO THE DISTRICT
COURT TO APPOINT AN ATTORNEY

)

)

CASE NO. 20CV61 -CJW-MAR

)

Plaintiffs)

)
)

vs.

)
)

AND CONCERNING:

)

ODNI - SUB DIRECTORS )
)
& SUBORDINATES
)

Defendant(s)

)

COMES NOW, THE PLAINTIFF, AND APPLIES TO THE NORTHERN DISTRICT
COURT TO APPOINT AN ATTORNEY FOR THE PLAINTIFF and states as follows:
1. 28 U.S.C. § 1915(e) -1 through E, which provides that federal courts may
"request" an attorney to represent any person claiming in forma pauperis status.
(1) The court may request an attorney to represent any person unable to afford
counsel.
(2) Notwithstanding any filing fee, or any portion thereof, that may have been paid,
the court shall dismiss the case at any time if the court determines that—
(A) the allegation of poverty is untrue; or
(B) the action or appeal—
(C) is frivolous or malicious
(D) fails to state a claim on which relief may be granted; or
(E) seeks monetary relief against a defendant who is immune from such relief.

Further, Federal Courts have identified factors that courts consider when evaluating a
motion for appointment of counsel. Appointment of counsel is only appropriate under
Enforcement Provisions - § 2000e-5(f): (a) after the plaintiff has affirmatively shown "(b)
financial inability to pay for counsel; (c) diligence in attempting to secure counsel; and
(d) meritorious allegations of discrimination.
1. Plaintiff has tried unsuccessfully to seek legal representation from seventeen
different attorneys in the eastern Iowa area and nationwide: a. Viner Law b. RSH
Legal c. Kucera & Associates Law d. Lynch-Dallas Law e. Rush Nicholson Law f.
Day, Rettig, Martin Law g. Piersall Law h. Simmons, Perrine, Moyer & Bergman
Law i. Arenson Law j. Dave O’Brien Law. k. Fagre-Drinker Law I. Shuttleworth &
Ingersoll Law m. Mark Liabo Law. n. Baez Law, Orlando FL. o. Ifrah Law,
Washington D.C. p. Tucker Law Group, Philadelphia PA. q. Wharton Aldhizer &
Weaver,Harrisonburg, PA r. Robert Livingston Law, Council Bluffs s. Brooke
Timmer, Des Moines
2. Very few of these law firms had even heard of a “Bivens vs. Six Agents” or
“FTCA Claim”. One firm had once dealt with such a claim and that firm was:
Dave O’Brien Law, Cedar Rapids, IA. They would not return telephone calls.
3. The submitted AO-240 affidavit submitted to the District Court on June 15th,
2020 clearly shows that Plaintiff is financially unable to secure counsel. In the
appointment-of-counsel context, the pertinent inquiry is whether the party
seeking appointment can “meet his or her daily expenses” while also hiring an
attorney. Given the financial affidavit, Plaintiff has shown that he would be
unable to meet his daily, non-discretionary expenses were he to hire an attorney.
4. Mr. Sulzner has been classified by the State of Iowa as “mentally impaired.”
To continue Pro Se would be a burden too heavy to bear without representation.

I, JUSTIN PAUL SULZNER, REQUEST THE DISTRICT COURT TO GRANT THIS
REQUEST AND CERTIFY UNDER THE PENALTY OF PERJURY THAT THE
FOLLOWING INFORMATION IS TRUE AND CORRECT

/s/ Justin Paul Sulzner

DATE:

July 31st, 2020

IN THE UNITED STATES FEDERAL COURT NORTHERN DISTRICT OF IOWA :

RECEIVED
MJG - 3 Z020

)

IN THE MATTER OF:
JUSTIN PAUL SULZNER
TRUE CCJW MEMBERS
& WATCHTOWER &
BIBLE TRACT SOCIETY

)
)
)
)

)
)

Plaintiff(s)

)

REQUEST FOR IMMEDIATE HEARING
&

REQUEST FOR AN IMMEDIATE
INJUNCTIVE CEASE & DESIST ORDER
CONCERNING MOVEMENTS AND
INFORMATION FLOW

)

vs.

)
)

CASE NO. 20CV61 -CJW-MAR

)
AND CONCERNING:
ODNI - SUB DIRECTORS )
& SUBORDINATES &
)
INTELL. OPERATIVES
)
)
Defendant(s)

COMES NOW, THE PLAINTIFF, AND APPLIES TO THE NORTHERN DISTRICT
COURT FOR HEARING AND INJUNCTIVE ORDERS TO PREVENT ODNI FROM
SURVEILLANCE AND INFORMATION FLOW HINDRANCE and requests as follows:
1. Plaintiff believes ALL information he sends, generates and receives via mail
email, cell-phone and wireless router and other means is unquestionably
being monitored and hindered by ODNI, its Directors, sub-directors and
subordinates, its intelligence community operatives and / or its contractors
and sub-contractors or any ODNI third party affiliates.
2. Plaintiff has discovered instances where mail has not been delivered to the
proper individuals, phone messages are deleted and he believes the same is
true concerning his electronic messages .
3. Plaintiff believes he correctly discerned what would develop when he
requested an injunctive order on June 15th, 2020 concerning delivery of this

complaint to Watchtower - CCJW in New York via U.S. Marshal Service. In
the last sixty days, the Plaintiff has called Watchtower - CCJW Worldwide
Legal and U.S. Legal in Warwick, New York no less than 48 times, left more
than 6 telephone messages, sent 4 letters (2 via certified mail) and sent more
than 20 emails and has not yet received one return call or discussed this
matter with the Head of Worldwide Legal, Mr. Paul Polidaro.
4. Considering the substance and content of the complaint filed on June
15th, 2020, the Plaintiff believes this is a seriously troubling matter that
Watchtower-CCJW would definitely not ignore or address another time.

—^

5. Plaintiff requests an immediate Injunctive Cease and Desist Order preventing
any ODNI employee, its directors, sub-directors and subordinates, its
intelligence community operatives and/ or its contractors and sub-contractors
or any ODNI third party affiliates from electronic and non-electronic monitoring
the actions/movements of Justin Paul Sulzner and cease from hindering the
free flow of any and all printed or electronic information that Justin Sulzner
generates,sends, receives or produces via USPS, USPS type delivery
services, electronically, via any cell telephone, via any computer or routers he
may personally use in connection with this case and with all personal matters.
6. Plaintiff requests an immediate Injunctive Cease and Desist Order preventing
any ODNI employee, its directors, sub-directors and subordinates, its
Ill
intelligence community operatives and/ or its contractors and sub-contractors
or any ODNI third party affiliates from electronic and non-electronic monitoring
of the actions/movements of the “true members of the CCJW at World
Headquarters Properties” and cease from hindering of any and all free flow of
printed or electronic information that is sent, produced or received via USPS,
USPS type delivery services, via all electronic devices, via any telephones or
cell phones, via any computers or routers they may use or by personal means
in connection with this case and in connection with ALL matters generated by
the Watchtower World Headquarters (in New York) and all properties
controlled by Watchtower - CCJW at: Ramapo, Tuxedo, Warwick, Patterson,
Wallkill, Mt. Ebo and any other U.S./Territory owned property not listed.

7. Plaintiff requests the Court order a copy of the June 15th , 2020 complaint
and these 2 Injunctive Orders immediately served via U.S Marshals with
individual identification verification on the named individuals at Watchtower CCJW Worldwide Headquarters in Warwick, New York.

I, JUSTIN PAUL SULZNER, REQUEST THE DISTRICT COURT TO GRANT THIS
REQUEST AND CERTIFY UNDER THE PENALTY OF PERJURY THAT THE
STATED INFORMATION IS TRUE AND CORRECT

/s/-Justin~Paui Suizner

CERTIFICATE OF SERVICE I filed the foregoing on August 3rd, 2020
with the Clerk of District Court which will
send notification of such filing to the parties
or attorneys of record.
ATTORNEY PRO SE
BY: Isl Justin P. Sulzner
Copy to:
Jacob A. Schunk
Assistant U.S. Attorney
111 7th Avenue SE - Box 1
Cedar Rapids, Iowa 52401-2101
Ph. 319-363-6333

-BATE -: -Aug ust-Srd, 2020

RECEIVED
IN THE UNITED STATES FEDERAL COURT
NORTHERN DISTRICT OF IOWA

Sept 03 2020

®aissss?sgsr

)

IN THE MATTER OF:
JUSTIN PAUL SULZNER
TRUE CCJW MEMBERS
& WATCHTOWER &
BIBLE TRACT SOCIETY

)

RULE 26(f) VIOLATION &
SECOND MOTION
FOR HEARING &
FOR INJUNCTIVE RELIEF

)
)
)

)
)

Plaintiffs)

)

CASE NO. 1:20-CV61«CJW-MAR

)

vs.

)
)

AND CONCERNING:
ODNI - SUB DIRECTORS
& SUBORDINATES

)
)
)
)

Defendant(s)

)

COMES NOW, THE PLAINTIFF, AND APPLIES TO THE NORTHERN DISTRICT
COURT and states as follows:
The Plaintiff provided EDMS notice regarding Rule 26(0 conference and filed that notice
with the Court on August 17th, 2020. The Defendants have refused to participate in a
Rule 26(f) conference, and refused to make contact concerning a proposed date for
such a conference. This is in clear violation of the requirements of the Federal Rules.
The Defendant's actions, or perhaps more accurately, refusal to act, have improperly
imposed a stay on the forward momentum of this case and precluded Plaintiffs) from
moving forward with discovery and the prosecution of this matter, including possible
injunctive relief.
Rule 37 authorizes the Court to direct that parties participate in good faith in the
discovery process. The U.S. attorneys have recently been moaning and complaining.
They are finding it too difficult to move forward with any part of this case, until the Court
considers the application to proceed "in forma pauperis” and they are served "properly”.

1

!

The Defendants at the U.S Attorney's Office are sending a clear message to the Court
that they feel they can direct the course and pace of this case and do not need to
recognize Federal Rules of procedure or submit to the District Court’s authority requiring
submission of the scheduling report.
The Defendant’s refusal to comply with the rules has foreclosed any possibility that the
parties will be able to hold the discovery conference and submit the required scheduling
report that was ordered for September 14th, 2020.
In light of the Defendants controlling circumstances, the Plaintiffs), for the second time,
request the Court deny their 60 day waiting period to consider pending motions. All
required parties have been sent the August 19th summons and copies of the complaint.
A second request for a hearing and for the Court to grant immediate injunctive relief is
also requested by the Plaintiffs).

I, JUSTIN PAUL SULZNER, REQUEST THE DISTRICT COURT TO GRANT THIS
MOTION AND CERTIFY UNDER THE PENALTY OF PERJURY THAT THE
STATED INFORMATION IS TRUE AND CORRECT.
DATE : September 3rd, 2020

fsl Justin Paul Sulzner
CERTIFICATE OF SERVICE I filed the foregoing on September 1st, 2020
via EDMS with the Clerk of District Court which
will send notification of such filing to the parties
or attorneys of record.
BY: /s/ Justin P. Sulzner
ATTORNEY PRO SE
Copies to:
Jacob A. Schunk & Melissa Carrington
Assistant U.S. Attorneys
111 7th Avenue SE - Box 1
Cedar Rapids, Iowa 52401-2101
Ph. 319-363-6333

1

RECEIVED
IN THE UNITED STATES FEDERAL COURT
NORTHERN DISTRICT OF IOWA

SEP 04 2020

‘KSssssssr

)

IN THE MATTER OF:
JUSTIN PAUL SULZNER
TRUE CCJW MEMBERS
& WATCHTOWER &
BIBLE TRACT SOCIETY

)

RULE 26(f) VIOLATION &
SECOND MOTION
FOR HEARING &
FOR INJUNCTIVE RELIEF

)
)
)

)
)

Plaintiffs)

)

CASE NO. 1:20-CV61 -CJW-MAR

)

vs.

)
)

AND CONCERNING:

)

ODNI - SUB DIRECTORS )
)
& SUBORDINATES
)

Defendant(s)

)

COMES NOW, THE PLAINTIFF, AND APPLIES TO THE NORTHERN DISTRICT
COURT and states as follows:
The Plaintiff provided EDMS notice regarding Rule 26(f) conference and filed that notice
with the Court on August 17th, 2020. The Defendants have refused to participate in a
Rule 26(f) conference, and refused to make contact concerning a proposed date for
such a conference. This is in clear violation of the requirements of the Federal Rules.
The Defendant’s actions, or perhaps more accurately, refusal to act, have improperly
imposed a stay on the forward momentum of this case and precluded Plaintiffs) from
moving forward with discovery and the prosecution of this matter, including possible
injunctive relief.
Rule 37 authorizes the Court to direct that parties participate in good faith in the
discovery process. The U.S. attorneys have recently been moaning and complaining.
They are finding it too difficult to move forward with any part of this case, until the Court
considers the application to proceed “in forma pauperis” and they are served “properly”.

1

The Defendants at the U.S Attorney's Office are sending a clear message to the Court
that they feel they can direct the course and pace of this case and do not need to
recognize Federal Rules of procedure or submit to the District Court’s authority requiring
submission of the scheduling report.
The Defendant's refusal to comply with the rules has foreclosed any possibility that the
parties will be able to hold the discovery conference and submit the required scheduling
report that was ordered for September 14th, 2020.
In light of the Defendants controlling circumstances, the Plaintiffs), for the second time,
request the Court deny their 60 day waiting period to consider pending motions. All
required parties have been sent the August 19th summons and copies of the complaint.
A second request for a hearing and for the Court to grant immediate injunctive relief is
also requested by the Plaintiffs).

I, JUSTIN PAUL SULZNER, REQUEST THE DISTRICT COURT TO GRANT THIS
MOTION AND CERTIFY UNDER THE PENALTY OF PERJURY THAT THE
STATED INFORMATION IS TRUE AND CORRECT.
DATE : September 3rd, 2020

Isf Justin Paul Sulzner
CERTIFICATE OF SERVICE I filed the foregoing on September 1st, 2020
via EDMS with the Clerk of District Court which
will send notification of such filing to the parties
or attorneys of record.
BY: fsf Justin P. Sulzner
ATTORNEY PRO SE
Copies to:
Jacob A. Schunk & Melissa Carrington
Assistant U.S. Attorneys
111 7th Avenue SE - Box 1
Cedar Rapids, Iowa 52401-2101
Ph. 319-363-6333
2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
CEDAR RAPIDS DIVISION
JUSTIN PAUL SULZNER, CHRISTIAN
CONGREGATION OF JEHOVAH’S
WITNESSES, and WATCHTOWER
BIBLE & TRACT SOCIETY, INC.,

No. 20-CV-61 CJW-MAR

ORDER
Plaintiffs,
vs.
UNITED STATES INTELLIGENCE
AGENCY,
Defendant.

I.

BACKGROUND

This matter is before the Court on plaintiff Justin Sulzner’s (plaintiff) pro se
complaint. (Doc. 1). In his complaint, brought under Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971), plaintiff alleges that the
“United States Intelligence Agency” is conspiring to subvert and overtake the two
religious organizations he lists as co-plaintiffs. Plaintiff has also filed a motion to proceed
in forma pauperis (Doc. 2), a motion to appoint counsel (Doc. 3), a second motion to
appoint counsel (Doc. 6), a motion for a preliminary injunction (Doc. 7), a pro se motion
for service (Doc. 11), a pro se motion for a status conference (Doc. 12), and a second
pro se motion for status conference (Doc. 15).
For the following reasons, the Court grants plaintiff s motion to proceed in forma
pauperis, but dismisses his complaint with prejudice and denies all other motions.
<

Case l:20-cv-00061-CJW-MAR Document 16 Filed 09/03/20

'
40

II.

MOTIONS TO PROCEED IN FORMA PAUPERIS

Plaintiff did not pay the $400 filing fee and has instead filed a motion to proceed
in forma pauperis.1 In order for a court to authorize the commencement of an action
without the prepayment of the filing fee, a person must submit an affidavit that includes
a statement of all the assets the person possesses. 28U.S.C. § 1915(a)(1). Additionally,
“[s]uch affidavit shall state the nature of the action, defense or appeal and affiant’s belief
that the person is entitled to redress.” Id. In his filing, plaintiff states he has no income
and few assets. Accordingly, his motion to proceed in forma pauperis (Doc. 2) is
granted. The Clerk of Court is directed to consider the complaint (Doc. 1) as filed
without the prepayment of fees.2
III.

INITIAL REVIEW STANDARD

There is some debate about a court’s ability to dismiss, preservice, a meritless
case filed by a non-prisoner. When a court allows a prisoner to proceed in forma
pauperis, there is clear statutory authorization to conduct an “initial review” to see
whether the claim is viable. 28 U.S.C. § 1915A. Neither Section 1915 nor Section
1915A, however, explicitly authorizes a court to conduct an initial review in non-prisoner
cases. Johnson v. Bloomington Police, 193 F. Supp. 3d 1020, 1023 (D. Minn. 2016)
(citing Porter v. Fox, 99 F.3d 271, 273 (8th Cir. 1996)). Nevertheless, even in the case
of a non-prisoner plaintiff, a court may dismiss a filing if it is clearly frivolous. Id.
Frivolousness is a higher standard than mere failure to state a claim under the Federal
1 This includes the $350 filing fee required by 28 U.S.C. § 1914(a) and the additional $50.00
administrative fee required when filing civil actions. See 28 U.S.C. § 1914, Judicial Conference
Schedule of Fees, No. 14 (“Administrative fee for filing a civil action, suit, or proceeding in a
district court, $50. . .”).
2 The religious organization plaintiffs did not pay the filing fee or file a motion to proceed
in forma pauperis. Nevertheless, because the claims in this case fail for the reasons
discussed below, and there is no indication those plaintiffs are properly represented in
this case, the Court need not further address the filing fee issue.
2

Case l:20-cv-00061-CJW-MAR Document 16 Filed 09/03/20 :

Rules of Civil Procedure. “[A] complaint, containing as it does both factual allegations
and legal conclusions, is frivolous where it lacks an arguable basis either in law or in
fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989). Additionally, Section 1915 states
that a court may dismiss, at any time, an in forma pauperis case that fails to state a claim
under the Federal Rules of Civil Procedure, See 28 U.S.C. § 1915(e)(2)(B)(ii); Benter
v. Iowa, Dep’t of Transp., 221 Fed. App’x 471 (8th Cir. 2007) (unpublished).
Accordingly, many courts, including this Court, rely on Section 1915(e)(2) to dismiss,
preservice, in forma pauperis complaints that clearly fail to state cognizable claims.
IV.
A.

ANALYSIS

Standards
1.

Bivens Standard

Giving plaintiffs filings the most generous possible construction, he seems to be
alleging that a federal government agency is violating his civil rights by infiltrating and
overtaking the church of which he is a member. Plaintiff indicates he is bringing this
claim under Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403
U.S. 388 (1971).
As a general rule, Bivens claims and § 1983 claims are almost identical and
involve the same analysis. See Gordon, 168 F.3d at 1113 (“An action under
Bivens is almost identical to an action under section 1983, except that the
former is maintained against federal officials while the latter is against state
officials.” (citation omitted)); Duffy v. Wolle, 123 F.3d 1026, 1037 (8th
Cir. 1997) (recognizing that the § 1983 body of law applies to Bivens
actions).
Solomon v. Petray, 795 F.3d 111, 789 n.7 (8th Cir. 2015); see also Wright v. United
States, 813 F.3d 689, 695 (8th Cir. 2015) (applying excessive force standards in a Bivens
action against the US Marshals Service).

3

Case l:20-cv-00061-CJW-MAR Document 16 Filed 09/03/20

Title 42, United States Code, Section 1983 provides, in relevant part:
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory . . . subjects, or causes to be
subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for
redress . . .
Section 1983 was designed to provide a “broad remedy for violations of federally
protected civil rights.” Monell v. Dep’t of Soc. Seivs., 436 U.S. 658, 685 (1978).
Nevertheless, Section 1983 provides no substantive rights. See Albright v. Oliver, 510
U.S. 266, 271 (1994); Graham v. Conner, 490 U.S. 386, 393-94 (1989); Chapman v.
Houston Welfare Rights Org., 441 U.S. 600, 617 (1979). “One cannot go into court and
claim a ‘violation of [42 U.S.C.] § 1983’ — for [42 U.S.C.] § 1983 by itself does not
protect anyone against anything.” Chapman, 441 U.S. at 617. Rather, 42 U.S.C. § 1983
provides a remedy for violations of all “rights, privileges, or immunities secured by the
Constitution and laws [of the United States].” 42 U.S.C. § 1983; see also Albright, 510
U.S. at 271 (stating that Section 1983 “merely provides a method for vindicating federal
rights elsewhere conferred.”); Graham, 490 U.S. at 393-94 (same); Maine v. Thiboutot,
448 U.S. 1, 4 (1980) (“Constitution and laws” means Section 1983 provides remedies
for violations of rights created by federal statute, as well as those created by the
Constitution.). To state a claim under Section 1983, a plaintiff must establish: (1) the
violation of a right secured by the Constitution or laws of the United States and (2) the
alleged deprivation of that right was committed by a person acting under color of state
law. See West v. Atkins, 487 U.S. 42, 48 (1988).
B.

Plaintiff’s Complaint

Plaintiffs theory is that the “United States Intelligence Agency” has been putting
agents into the religious organizations he listed as co-plaintiffs, initially for the purpose

4

Case l:20-cv-00061-CJW-MAR Document 16 Filed 09/03/20

of investigating those organizations, and subsequently for the purpose of controlling and
ultimately eliminating them. Plaintiff maintains that he has uncovered this plot through
Freedom of Information Act requests.
Plaintiff’s complaint fails for several reasons,

ere is no indication that

plaintiff is an attorney, or would otherwise have authority to prosecute this case on behalf
of the other plaintiffs, as, generally, a pro se plaintiff cannot represent the interests of
third parties. See Rodriguez v. Eastman Kodak Co., 88 Fed. App’x 470, 471 (2d Cir.
2004); see also Crozier v. Westside Cmty. Sch. District et al., — F.3d —, 2020 WL
5223512, at *3 (8th Cir. 2020) (stating that in a Section 1983 case, pro se parents cannot
represent the interests of their minor child). ^Second) plaintiff has not identified any
individual defendants. “Because vicarious liability is inapplicable to Bivens and § 1983
suits, a plaintiff must plead that each Government-official defendant, through the
official's own individual actions, has violated the Constitution.” Ashcroft v. Iqbal, 556
U.S. 662, 676 (2009). Thus, plaintiffs complaint is deficient and must be denied.3
Third^) plaintiffs complaint fails to include a “short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Generally, pro
se filings are held to lower standards than pleadings filed by attorneys. Jackson v. Nixon,
747 F.3d 537, 541 (8th Cir. 2014). Nevertheless, even under the most generous pleading
standard, plaintiffs complaint, and his other filings, are simply unsupported conclusions
that this (for lack of a better term) conspiracy exists, and the filings are completely devoid
-

-

—

•

—

--------------------

— ■

—-

*-

m

of any indication that plaintiff would, individually, be entitled to relief even if the

3 Plaintiff states that he is in fact bringing this case against individual government officers. Yet,
he has not made any allegations related to any individual actions. Rather, he refers only to
unspecific, collective, group activity. Accordingly, he has failed to comply with the standard
articulated above.
5

Case l:20-cv-00061-CJW-MAR Document 16 Filed 09/03/20 ^ (

allegations are true. Accordingly, plaintiff has failed to state a claim for which relief can
be granted.
V.

CONCLUSION

For the reasons set out above:
1.

Plaintiffs motion to proceed in forma pauperis (Doc. 2) is granted. The
Clerk of Court is directed to consider the complaint (Doc. 1) as filed without
the prepayment of fees.

2.

After initial review, the complaint is denied for the reasons set out above.
Accordingly, this case is dismissed with prejudice.

3.

Plaintiffs remaining motions (Docs. 3, 6, 7, 11, 12 and 15) are denied as
moot.

IT IS SO ORDERED this 3rd day of September, 2020.

C.J. Williams
United States District Judge
Northern District of Iowa

6
Case 1:20-cv-00061-CJW-MAR Document 16 Filed 09/03/20 ^

8th CIRCUIT COURT OF APPEALS REQUEST FOR REVIEW
A. This En Banc Review Request centers around a large constitutional (1st, Free
Exercise Clause, 14th Amendment) and statutory (RFRA and Bivens) issue : The
exercise of religious freedom being severely distorted by a large, active ODNI
community operating within the Christian Congregation of Jehovah’s Witnesses
(CCJW) and a belief that the ODNI community members are executing financial,
administrative and religious worldwide decisions that are not in the best interest
of the “true members” within that religious organization.
The Supreme Court noted: A government action is not “neutral” if its “object or purpose” is to
restrict practices because of their religious motivations. - Church of Lukumi vs. Hialeah >
508 U.S. 520 (1993). This suspected intelligence operation is not neutral. The Supreme Court
went on to state in that case “facial neutrality is not determinative” - Lukumi vs. Hialeah at 534.
The Free Exercise Clause uses a perfect term related to this complaint by stating “covert
suppression of religion” and "subtle departures from neutrality” are strictly forbidden.
The Plaintiff requests the Eighth Circuit En Banc Panel to review six errors of exceptional
importance within his complaint, each of which are concisely stated:
The Iowa Northern District and 8th Circuit 3- Panel Courts erred in six instances:
1. The Iowa Northern District did not consider two motions for appointment of
counsel for the mentally disabled Plaintiff. (See Page 1 of the Order)
The Plaintiff is under an order from the State of Iowa restricting him to an involuntary outpatient
mental commitment. The Plaintiff informed the Iowa Northern District very early of this disability
within his July 31st, 2020 filing and requested assistance.
Indigent civil litigants must file for leave to proceed without liability for Court costs under 28
U.S.C. 1915 (a). If this leave is granted, the Plaintiff can request appointment of counsel under
28 U.S.C. 1915 (d). These requests were filed early by the Plaintiff. The request for attorney
assistance was requested of the Court on July 31st, 2020 when the mentally disabled Plaintiff
filed an application for attorney assistance.
The Court completely dismissed both issues within the final order.
With a qualified attorney, the Plaintiff could have addressed the concerns of the Court in a way
that would permit the claims to be considered on the merits or adjusted the claims. The Plaintiff
did not desire to proceed Pro Se, but he could not locate an attorney. The court would not
consider those two important motions.
2

In Indiana vs. Edwards (2008), the Supreme Court observed that the right to represent oneself
at trial is qualified by the court's interest in "preserving courtroom decorum and promoting the
orderly presentation of evidence, questioning of witnesses, and advancement of legal
argument.’’ The Supreme Court also stated that "common sense" should be used when mental
illness might impair a person's ability to accomplish basic legal tasks such as “obtaining
evidence through the discovery process, question or subpoena witnesses and advance his legal
arguments”—tasks that any trained lawyer could effectively execute.
Having only been a janitor for the last 30 years, the Plaintiff knew he could not effectively “obtain
evidence through the discovery process, question or subpoena witnesses and advance his legal
arguments” as a Pro Se attorney, while fighting against a very powerful branch of the United
States government, the Plaintiff thus requested assistance from the Iowa Northern District
It is evident that the Iowa Northern District chose to pick out minor inconsistencies within the
Plaintiffs' Pro Se filings and used them to dismiss the case rather than assist the disabled
Plaintiff by considering the motion for appointment of counsel. (See Jose Antonio Gonzalez v.
Eric Holder (2013): This California Appellate decision is the first time a court has required the
government to provide legal assistance for a group of mentally disabled individuals within the
nation’s immigration courts.
It would seem that if an Appellate Court can order legal assistance for a disabled immigrant,
with virtually no precedence cited, the 8th Circuit En Banc Panel can surely consider the same
thing for a mentally disabled citizen considering these circumstances?

2. The Iowa Northern District did not consider August 3rd, August 17th and
September 3rd, 2020 motions for court hearings to discuss the Plaintiffs’
important concerns related to the case.
The Fed. R. Civ. P direct that :“The district courts shall be deemed always open for the purpose
of filing any pleading.” Logically, those pleadings should not be ignored.
Dozens of established Federal cases relate to the proper filings of court documents, so logically
the federal judicial system certainly must “perform its basic ministerial duty ” and give careful
consideration to each of those submitted documents. (Ex parte United States, 287 U.S. 241
(1932) (refused to perform the basic ministerial duty of issuing a bench warrant), (Ex parte
United States, 242 U.S. 27 (1916) (refused to impose a sentence).
Granting the Plaintiffs early hearing requests would have given the Iowa District Court an
excellent opportunity to address any concerns before dismissing the case.

1

It seems evident that the Iowa Northern District chose to focus on the minor inconsistencies
within the Pro Se' filings, rather than assist the Plaintiff to pursue justice by granting the motions
for hearings while actually listening to the Plaintiffs’ concerns.

3. The Iowa Northern District erred stating that the Plaintiff “did not identify any
individual defendants...stating that a Plaintiff must “plead that each Government
official /defendant has violated the Constitution” (Page 5 of order).
The Iowa Northern District does not really identify within its order, whether they feel the
complaint is frivolous or fails to state a claim under the Fed. R. Civ. P. It seems to be a
combination of both, so both issues will be addressed.
It is of interest, within the first electronic filing, that the iowa District Court ordered a 26(f)
Scheduling Report to be completed by 9/14/2020. Obviously from what Judge C. J. Williams ;
had initially read, there must have been some merit to the complaint, or he would not have
moved forward by requiring that Rule 26(f) conference.
The identification of each government official involved is not yet known, as the Rule 26(f)
conference between the Plaintiff and the Defendants was in the earliest planning stages of the
case. The filings show that discovery scheduling was slowly progressing.
This reason for dismissal is completely baseless. The discovery during the case, especially the
names of the government officials in question, will not be readily available due to the sensitivity
of intelligence issues at this early stage. A vigorous search via the internet will not reveal the
names of the government individuals who hold these key intelligence positions within ODNI right
now. It is my correct belief that names are not disclosed for security reasons under 50 U.S.C.
How can this be a fair-minded reason for case dismissal when access to the names are not
(yet) available via discovery??

4. The Iowa Northern District order has mistakenly classified this complaint as
having “unsupported conclusions” and a “conspiracy” (See Page 5 of Order)
This is among the most grievous opinions in this case. Judge C.J. Williams seems to lean
toward dismissing the Plaintiff's complaint for “frivolous reasons” as the order continues to
elaborate. He states that the Plaintiff has “uncovered a plot in which U.S. Intelligence has been
putting agents into the religious organization he belongs to and has uncovered this plot through
the FOIA requests”.
The Plaintiff provided ample proof of verified past intelligence operations within CCJW (Christian
Congregation of Jehovah’s Witnesses): NARA (National Archives) documents were clearly
4

downloaded with the complaint and identified two active intelligence operations within the
CCJW in the last 99 years. One intelligence operation lasted from 1921 thru 1977 and the
second intelligence operation lasted from 1940 thru 1963. In total, NARA confirms, there is an
incredible quantity of 13,600 pages declassified, but inaccessible and unredacted until at least
the year 2023 due to NARA heavy caseload.
If there is clear and solid evidence that U.S. Intelligence conducted two multi-decades Iona
covert operations within the CCJW from 1921, how can the Iowa Northern District discredit this
information as being a ‘‘conspiracy, for lack of a better term? ” (Page 5 of order) Further,
circumstantial evidence was also cited within the complaint. To proceed with a complaint like
this, “facts alleged in the complaint must be sufficient to show that the plaintiff has a plausible
claim for relief.”’( Ashcroft vs. Iqbal, 129 S. Ct. at 1950 - at 211 ).
Why is it beyond the grasp of the Iowa Northern District to believe that other, insidious
intelligence operations could currently be operating inside the CCJW (or other religions)?? And
why do these confirmed intelligence operations seem to be “frivolous” evidence to the Iowa
Northern District?? The Plaintiff believes with discovery, there is much more to reveal
concerning this serious “freedom of religion” matter.

5. The Iowa Northern District order states “Section 1915 states the court may
dismiss a claim in an ‘in forma pauperis’ that fails to state a claim” (See Page 3 of
the order) “Plaintiffs complaint is deficient and must be denied...Plaintiffs
complaint fails to include a short and plain statement of the claim showing the
pleader is entitled to relief ” - Fed R. Civ. P. 8 (a) (2). (See Page 5 of order)

On Page 1 & 2 of his complaint, the Plaintiff clearly requests relief: 1. “Plaintiff seeks
declaratory and injunctive relief pursuant to 28 U.S.C.-Sections 2201 and 2202, 2283 and 2284
and/or 1346(b). The Plaintiffs four injunctive reliefs are clearly stated on Page 9 & 10 of
his complaint. 5. Plaintiff believes he's entitled because "the Defendants acted beyond their
official capacity in order to keep an intelligence community in operation, secret and viable ” 8.
The Defendants have "assisted and facilitated a predatory intelligence community that is slowly
and quietly inducing true members to abandon their faith ” and 9. “have been deprived
members of their constitutionally protected right to practice their religious beliefs unhindered"
The Plaintiff also states he will seek 4 additional “reliefs” (Page 12): compensatory,
non-discriminatory measures, costs to file the suit and equitable costs or disbursements.
6. The Iowa Northern District would not hear or grant any of the six desperately
needed injunctive reliefs.
5

# The Plaintiff initially requested these two, out of six emergency injunctive reliefs :
(a) Order an immediate individual personal service of this complaint by U.S. Marshals to four of
the most senior members of the CCJW Governing Body of Jehovah’s Witnesses: Gerritt
Loesch, Samuel Herd, Mark Stephen Lett, David Splane and the Head of Worldwide Legal
Department, Mr. Paul Polidoro.
(b) Order all ODNI directed and/or any ODNI third party directed intelligence community
individuals/contractors to immediately cease executing any decisions for the CCJW and WBTS
and permanently depart and cease from working and residing at the following World
Headquarters (in New York) properties controlled by WBTS Inc and/or CCJW: Ramapo, Tuxedo,
i Warwick, Patterson, Wallkill, Mt. Ebo and any other owned property in the U.S. not listed within
115 days of the issuing order.
Courts have ruled that injunctive relief must be “narrowly drawn, extending no further than
necessary to correct the harm...and be the least intrusive means to correct the harm” (11th
Circuit Court - Nelson vs. Campbell (2004), citing 18 U.S.C. 3626(a).
Further, Courts look for four other "flexible" factors: (1) the likelihood that the party seeking the
injunction will prevail on the merits. (2). the likelihood the moving party will be irreparably harmed
absent the injunction, (3) the prospect others will be harmed if the court grants the injunction;
and (4) the public interest in granting the injunction. See D.C Appellate Circuit - McSurley vs.
McClellan (1982), Standing Rock vs. U.S. Corps 16-1534 (2017), Mario Cuomo vs. Nuclear
Regulatory Commission (1985), Washington Metro Transit vs. Holiday Tours inc. (1977)
The 1st injunction would only affect only 5 people and is totally harmless to any and all parties.
It’s simply a request for certified, confirmed legal notification served to the parties. This
injunction was requested because the Plaintiff firmly believes that the CCJW Legal Department
is completely unaware of this complaint, filed for 5 months now.
The 2nd injunction would apply to fewer than 3000 people currently living and working at CCJW
Headquarters in New York. The Plaintiff believes this injunctive request is unquestionably
“narrowly drawn”. As explained within this petition for review, the Plaintiff explained why he
believes he can “prevail on the merits of this case.”
The Plaintiff (and others) will suffer “irreparable harm unless the injunctions are granted” in a
“mandatory, expedited” basis and further delays will cause irreparable damage. (28 U.S.C.
1657 & Sealed 825 F2d 189-190 (1987). Plaintiff believes the damage being inflicted is within
the administrative, financial, and religious decisions that are being executed within the CCJW by
individuals at CCJW Headquarters who are not truly “Jehovah’s Witnesses, but who are ODNI
intelligence operatives, quietly working there for decades.

6

In the last 3 days, ODNI agencies have either denied involvement via scope applicability or
refused to provide an answer concerning intelligence involvement (via FOIA’s). With those
replies, it can be safely assumed they and any “other parties will not be harmed" by a court
ordered injunction.
Finally, the “public interest is significant” as other religiously inclined members within various
denominations would be interested to know if similar operations may be operating within their
personal places of worship.
The substance within the requested injunctions clearly meets the five flexible factors established
by the D.C. & 11th Circuit definition. If the injunctions are ordered and no one leaves the CCJW
properties, the order will obviously be innocuous.
The Plaintiff believes he is “pursuing a challenging, serious legal question that is in need of
more deliberative investigation” - (Jewish War Veterans v. Gates (2007) (citing Washington
Metro - 559 F2d at 844).
The Plaintiff requests the Eighth Circuit Court of Appeals En Banc to grant:
1. Plaintiff requests ordering the two injunctions discussed on Page 4.
2. Plaintiff requests assistance in securing a qualified attorney.
3. Plaintiff requests an immediate injunctive cease and desist order preventing any
ODNI employee, its directors, sub-directors and subordinates, its intelligence
community operatives and/ or its contractors and sub-contractors or any ODNI
directed third party affiliates from electronic and non-electronic monitoring of the
actions/movements of any “true member” of the WBTS/CCJW in the U.S and
internationally. Further, to cease and desist from hindering and monitoring ANY
and ALL flow of printed or electronic information that may be sent, produced or
received via USPS, USPS type delivery services, via all electronic devices, via any
type of telephone, and via any type of electronic device & routers in connection
with ANY AND ALL matters dealt with by the WBTS/CCJW at all U.S. and
international properties they direct.
4. Plaintiff requests an emergency injunction ordering all ODNI guided agencies or
programs and all ODNI sub-directors, employees and or/contractors or ODNI third
party affiliates to produce all documents, without retention, since 1963,concerning
any and all information describing guidance, motives, goals, orders, directives,
oversight, intelligence integration, policies, budget breakdown, and personnel
,
financial incentive policies related to any covert intelligence community
\ operation(s) currently functioning in all CCJW’s in the U.S. & internationally.
7

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2997

Justin Paul Sulzner
Plaintiff - Appellant
Christian Congregation of Jehovah's Witnesses; Watchtower Bible & Tract Society, Inc.
Plaintiffs
__v, United States Intelligence Agency, ODNI - Office of Department National Intelligence and its
Directors. Assistant Directors and Subordinates
Defendant - Appellee
Appeal from U.S. District Court for the Northern District of Iowa - Cedar Rapids
(1:20-CV-00061-CJ W)
JUDGMENT

Before SHEPHERD, KELLY, and GRASZ, Circuit Judges.
This court has reviewed the original file of the United States District Court. It is ordered
-----by the “court thatthejubginenl oTthe district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
October 22, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/si Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2997
Justin Paul Sulzner
Appellant
Christian Congregation of Jehovah's Witnesses and Watchtower Bible & Tract Society, Inc.
v.
United States Intelligence Agency, ODNI - Office of Department National Intelligence and its
Directors, Assistant Directors and Subordinates
_____ Appellee.______

Appeal from U.S. District Court for the Northern District of Iowa - Cedar Rapids
(1:20-cv-00061-CJW)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
December 02, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

